M E M O R A N D U M


                                                                        May 3, 1999


   To:    Jim McConnell, Executive Director
   From: Walter Stachnik, Inspector General
   Re:    Survey of Sensitive Information (#277)


   Attached is our audit survey report on management’s controls for safeguarding
   sensitive information.
   The courtesy and cooperation of you and your staff during this audit survey are
   appreciated.


   Attachment
   cc:    Mike Burnett
          Diane Campbell
          Harvey Goldschmid
          Darlene Pryor
          Jennifer Scardino
          Richard Walker
           SENSITIVE INFORMATION

                                      INTRODUCTION
The Office of Inspector General conducted an audit survey of management’s controls for
safeguarding sensitive information. Sensitive information includes market sensitive
(e.g., knowledge of unannounced mergers), proprietary (e.g., trading models), business
(e.g., customer lists), and information of interest to foreign governments.



                              SCOPE AND OBJECTIVES
The scope of our audit survey consisted primarily of interviewing Commission staff and
reviewing supporting documentation, among other procedures.
The primary objective of the audit survey was to identify what sensitive information exists
throughout the Commission and management controls to provide reasonable assurance
that the sensitive information is safeguarded.



                                     AUDIT RESULTS
We documented several management controls to protect sensitive information.
However, we believe that additional controls could significantly enhance the
effectiveness of the system of controls over this information. We provided senior
management with an oral briefing of our findings and recommended that management
strengthen management controls.

         Recommendation A
         The Office of the Executive Director, in conjunction with all Commission Divisions
         and Offices, should strengthen management controls to safeguard sensitive
         information.
Management concurred and has established a Task Force to implement corrective
actions. We plan on conducting a follow-up audit in the year 2000.




S U R V E Y O F S E N S I T I V E I N F O R M AT I O N ( AU D I T 2 7 7 )     M AY 3 , 1 9 9 9
